   ~ stllV1CES




('l
,."'¥"'"~
                                                DEPARTMENT OF HEALTH AND HUMAN SERVICES
                                                               OFFICE OF AUDIT SERVICES
                                                              233 NORTH MICHIGAN AVENUE
                                                                CHICAGO, ILLINOIS 60601
                                                                                                               REGION
                                                                                                               OFFICE
                                                                                                                       V
                                                                                                                      OF
                                                                                                           INSPECTOR GENERAL
                                                                  November 19, 2008


            Report Number: A-05-08-00026

            Mr. Cal Ludeman
            Commissioner
            Minnesota Department of Human Services
            P.O. Box 64998
            St. Paul, Minnesota 55164-0998

            Dear Mr. Ludeman:

            Enclosed is the U.S. Deparment of                                                 Inspector
                                                              Health and Human Services (HHS), Office of

            General (DIG), final report entitled "Review of  Medicaid Credit Balances at Lakeview Hospital
            as of February 1,2008." We wil forward a copy of    this report to the HHS action official noted
            on the following page for review and any action deemed necessary.

            The HHS action official wil make final determination as to actions taken on all matters reported.
            We request that you respond to this official within 30 days from the date of this letter. Your
            response should present any comments or additional information that you believe may have a
            bearing on the final determination.

            Pursuant to the principles of the Freedom ofInformation Act, 5 U.S.C. § 552, as amended by
            Public Law 104-231, DIG reports generally are made available to the public to the extent the
            information is not subject to exemptions in the Act (45 CFR part 5). Accordingly, this report
            will be posted on the Internet at http://oig.hhs.gov.

            If you have any questions or comments about this report, please do not hesitate to call me, or
            contact Sheri Fulcher, Audit Manager, at (312) 353-1823 or through e-mail at
            Sheri.Fulcher(foig.hhs.gov. Please refer to report number A-05-08-00026 in all correspondence.

                                                                            Sincerely,



                                                                           7f~:;
                                                                            Regional Inspector General
                                                                             for Audit Services


            Enclosure
Page 2 - Mr. Cal Ludeman


Direct Reply to HHS Action Official:

Ms. Jackie Garner, Consortium Administrator
Consortium for Medicaid and Children's Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Ilinois 60601
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 REVIEW OF MEDICAID CREDIT
     BALNCES AT LAEVIEW
         HOSPITAL AS OF
        FEBRUARY 1, 2008




        ..O~'" ~
            _, SERVICEs

                          Daniel R. Levinson
                           Inspector General
       (~. ~JíL            November 2008
        ~A,
          ;¿/¡Vá3G          A-05-08-00026
                             Offce of Inspector General
                                           http:// oig.hhs.gov


                                                                                                    -I




The mission of        the Office ofInspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of     the Department of   Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Offce of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance ofHHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections

The Offce of Evaluation and Inspections (OEl) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations

The Office of Investigations (01) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, 01 utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts ofOI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General

The Offce of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG's internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                           Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                    EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. The Minnesota Department of Human Services
(the State agency) is responsible for administering the Minnesota Medical Assistance program
(Medicaid).

Credit balances generally occur when the reimbursement that a provider receives for services
provided to a Medicaid beneficiary exceeds the charges billed, such as when a provider receives
payments for the same service from the Medicaid program or another third party payer. In such
cases, the provider should return the existing overpayment to the Medicaid program, which is the
payer of last resort.

Federal regulations at 42 CFR 433 subpart F, “Refunding the Federal Share of Overpayments to
Providers,” require States to adjust any outstanding credit balances within 60 days after
notification by a provider that a credit balance exists. The State agency does not have any
regulations in place requiring providers to refund Medicaid credit balances within a specific time
frame.

Lakeview Hospital (Lakeview) is a 97-bed, acute care hospital located in Stillwater, Minnesota.
Lakeview returned $6,291 in Medicaid overpayments to the State agency during fiscal year
2007.

OBJECTIVE

Our objective was to determine whether the Medicaid credit balances recorded in Lakeview’s
accounting records for inpatient and outpatient services represented overpayments that it should
have returned to the Medicaid program.

SUMMARY OF FINDINGS

As of February 1, 2008, Lakeview’s Medicaid credit balances included 23 overpayments totaling
$5,174 ($2,587 Federal share) that had not been returned to the Medicaid program. For 15 of the
23 overpayments, the ages ranged from 63 to 996 days. Lakeview acknowledged that the
overpayments occurred because its credit balance review procedures lacked detail and employees
lacked training.

We verified that Lakeview refunded all 23 overpayments to the State agency as of June 3, 2008.




                                                i
RECOMMENDATIONS

We recommend that the State agency:

   •	 refund to the Federal Government the $2,587 paid to Lakeview for Medicaid 

      overpayments and 


   •	 work with Lakeview to revise its procedures and implement training to ensure that credit
      balances are reviewed and overpayments are returned to the Medicaid program.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency agreed with our finding and
recommendations. However, the State agency did not fully address the refund of overpayments
to the Federal Government.

We continue to recommend that the State agency refund $2,587 to the Federal Government.

The State agency’s comments are included in their entirety in the Appendix.




                                               ii
                                           TABLE OF CONTENTS 

                                                                                                              Page

INTRODUCTION..................................................................................................1


          BACKGROUND .........................................................................................1 


          OBJECTIVE, SCOPE, AND METHODOLOGY .......................................1 

               Objective ..........................................................................................1       

               Scope………………………………………………………………1                                                                              

               Methodology……………………………………………………… 2                                                                          


FINDING AND RECOMMENDATIONS………………………………….......2


          FEDERAL AND STATE MEDICAID REQUIREMENTS........................2 


          OUTSTANDING CREDIT BALANCE ACCOUNTS CONTAINING 

           OVERPAYMENTS ..................................................................................3 


          RECOMMENDATIONS……………………………………………….....3                                                                      


          STATE AGENCY COMMENTS AND
          OFFICE OF INSPECTOR GENERAL RESPONSE ..................................4 


APPENDIX

          STATE AGENCY COMMENTS




                                                            iii
                                       INTRODUCTION 


BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. The Minnesota Department of Human Services
(the State agency) is responsible for administering the Minnesota Medical Assistance program
(Medicaid).

Credit balances generally occur when the reimbursement that a provider receives for services
provided to a Medicaid beneficiary exceeds the charges billed, such as when a provider receives
payments for the same service from the Medicaid program or another third-party payer. In such
cases, the provider should return the existing overpayment to the Medicaid program, which is the
payer of last resort.

Federal regulations at 42 CFR 433 subpart F, “Refunding the Federal Share of Overpayments to
Providers,” require States to adjust any outstanding credit balances within 60 days after
notification by a provider that a credit balance exists. The State agency does not have any
regulations in place requiring providers to refund Medicaid credit balances within a specific time
frame.

Lakeview Hospital (Lakeview) is a 97-bed acute care hospital located in Stillwater, Minnesota.
Lakeview returned $6,291 in Medicaid overpayments to the State agency during fiscal year
2007.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Medicaid credit balances recorded in Lakeview’s
accounting records for inpatient and outpatient services represented overpayments that it should
have returned to the Medicaid program.

Scope

As of February 1, 2008, Lakeview’s accounting records contained 69 accounts totaling $51,474
with Medicaid listed as a payer. We determined that 23 of the 69 accounts included Medicaid
overpayments. Our review of overpayments included 19 outpatient accounts totaling $3,623, 1
same-day surgery account totaling $1,490, and 3 inpatient accounts totaling $61.




                                                1

We limited our review of internal controls to obtaining an understanding of the policies and
procedures that Lakeview used to review credit balances and report overpayments to the
Medicaid program and did not review its entire internal control structure. This understanding
was for the purpose of accomplishing our objective and not to provide assurance of the internal
control structure.

We performed our fieldwork from February through June 2008 at Lakeview Hospital in
Stillwater, Minnesota.

Methodology

To accomplish our objective, we:

   •	 researched and reviewed Federal and State requirements pertaining to Medicaid credit
      balances;

   •	 identified and reconciled Lakeview’s Medicaid credit balances to its accounting records
      as of February 1, 2008;

   •	 reconciled Lakeview’s February 1, 2008 credit balance list to the accounts receivable
      records, and reconciled the accounts receivable records to the trial balance;

   •	 reviewed patient payment data, Medicaid claim forms and remittance advices, patient
      accounts receivable detail and additional supporting documentation for each credit
      balance account; and

   •	 coordinated our audit with officials from the State agency.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDING AND RECOMMENDATIONS

As of February 1, 2008, Lakeview’s Medicaid credit balances included 23 overpayments totaling
$5,174 ($2,587 Federal share) that had not been returned to the Medicaid program. For 15 of the
23 credit balances, the ages of the overpayments ranged from 63 to 996 days. Lakeview
acknowledged that the overpayments occurred because its credit balance review procedures
lacked detail and employees lacked training.

FEDERAL AND STATE MEDICAID REQUIREMENTS

Pursuant to 42 CFR 433 Subpart F, “Refunding the Federal Share of Overpayments to
Providers,” States must adjust any outstanding credit balances. The regulation is based on the


                                                2

statutory requirements contained in the Omnibus Reconciliation Act of 1985 (Public Law 99-
272), section 9512, which requires States to adjust any outstanding credit balances within 60
days after notification by a provider that a credit balance exists.

In accordance with Federal regulations, the State agency must adjust the applicable claim or
recover the amount of the Medicaid overpayment from the provider within 60 days of
notification. Minnesota Statute 256B.0641 states the provider must refund the overpayment
amount to the State agency after its identification. The State agency does not have any
regulations in place requiring providers to refund Medicaid credit balances within a specific time
frame.

OUTSTANDING CREDIT BALANCE ACCOUNTS CONTAINING OVERPAYMENTS

For 23 credit balances, Lakeview had not returned Medicaid overpayments totaling $5,174
($2,587 Federal share). As of February 1, 2008, Lakeview had Medicaid credit balances with
ages that ranged from 9 to 996 days old.

                                     Ages of Overpayments
                                       # of          Overpayment 

                   Days              Accounts          Amount          Federal Share 

               1 - 60                    8               $2,823             $1,412
               61 – 90                   2                  291                145
               91 – 180                  5                  822                411
               181 – 365                 6                  625                312
               366 – 1,000               2                  613                307
               Total                     	23             $5,174             $2,587

Lakeview acknowledged that the overpayments occurred because its procedures lacked detail to
enable staff to identify and report Medicaid credit balances accurately and timely, and did not
include sufficient training and guidance for patient account representatives to implement the
procedures.

We verified that Lakeview refunded all 23 overpayments to the State agency as of June 3, 2008.

RECOMMENDATIONS

We recommend that the State agency:

   •	 refund to the Federal Government the $2,587 paid to Lakeview for Medicaid 

      overpayments and 





                                                3

   •	 work with Lakeview to revise its procedures and implement training to ensure that credit
      balances are reviewed and overpayments are returned to the Medicaid program.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency agreed with our finding and
recommendations. However, the State agency did not fully address the refund of overpayments
to the Federal Government.

We continue to recommend that the State agency refund $2,587 to the Federal Government.

The State agency’s comments are included in their entirety in the Appendix.




                                               4

APPENDIX

APPENDIX
 Page 1 of 3 

APPENDIX
 Page 2 of 3 

APPENDIX
 Page 3 of 3 

